TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                          Chief Counsel Should Take Steps
                           to Minimize the Risk of Outside
                            Influence on Its Letter Rulings



                                         August 29, 2013

                              Reference Number: 2013-10-081




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                    HIGHLIGHTS


CHIEF COUNSEL SHOULD TAKE STEPS                        attorney from the same taxpayer or practitioner.
TO MINIMIZE THE RISK OF OUTSIDE                        However, TIGTA found that this policy was not
INFLUENCE ON ITS LETTER RULINGS                        effectively implemented due to the lack of
                                                       complete management information on its letter
                                                       rulings inventory. Instead, management relied
Highlights                                             on each attorney to determine whether he or she
                                                       should work directly assigned letter rulings or
                                                       have them assigned to another attorney through
Final Report issued on August 29, 2013
                                                       the normal case assignment process. However,
                                                       the attorneys did not always provide specific
Highlights of Reference Number: 2013-10-081
                                                       information about their decisions to work or not
to the Internal Revenue Service Chief Counsel.
                                                       work the ruling to the front office for input in its
IMPACT ON TAXPAYERS                                    inventory system.

The IRS issues letter rulings that interpret and       WHAT TIGTA RECOMMENDED
apply tax laws to a specific set of facts provided
                                                       TIGTA recommended that the Chief Counsel:
by corporations, individuals, and international
                                                       1) develop written policies for all Associate Chief
entities. Because each letter ruling can impact
                                                       Counsel offices to oversee, manage, and, as
millions of dollars of tax collections, the IRS
                                                       appropriate, limit the number of letter ruling
must protect the integrity and independence of
                                                       assignments from the same practitioner;
the letter ruling process. The appearance that
                                                       2) establish a centralized processing location for
practitioners could possibly manipulate the letter
                                                       receipt and review by the Office of the Associate
ruling process may result in the risk that
                                                       Chief Counsel (Corporate) for letter rulings sent
inappropriate favorable rulings could cost the
                                                       directly to attorneys and require management to
Government substantial tax revenue.
                                                       periodically review the inventory system to
WHY TIGTA DID THE AUDIT                                ensure that established policies and procedures
                                                       are effective in limiting the number of letter
This audit was initiated to assess Chief               rulings assigned to a specific attorney that
Counsel’s policy to limit the number of letter         originates from the same practitioner; and
ruling requests handled by its attorneys from the      3) periodically review the Technical
same taxpayer or practitioner. Chief Counsel           Management Information System to ensure that
implemented this policy in order to address the        front office staff is receiving and inputting all
taxpayers’ and practitioners’ reported strategy to     applicable letter ruling requests and related
increase their chances of obtaining expeditious        information in the inventory system.
and favorable letter rulings by having their
requests handled by a preferred attorney.              The IRS agreed with all of our recommendations
                                                       and plans to revise the written procedures on
WHAT TIGTA FOUND                                       letter rulings to formalize and strengthen
                                                       management oversight of its case assignment
Chief Counsel does not have written policies or
                                                       process.
an effective management information system to
prevent practitioners or taxpayers from having         .
letter ruling requests assigned to a preferred
attorney. Specifically, five of the six associate
offices that provide rulings had no written
policies and insufficient management
information to assess the potential risk of
outside influence on the assignment of their
letter rulings.
The remaining associate office responsible for
corporate tax issues developed a written policy
to limit the number of rulings assigned to an
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           August 29, 2013


 MEMORANDUM FOR CHIEF COUNSEL


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Chief Counsel Should Take Steps to Minimize the
                             Risk of Outside Influence on Its Letter Rulings (Audit # 201210024)

 This report presents the results of our review to assess Chief Counsel’s process to limit the
 number of letter ruling requests handled by its attorneys from the same taxpayer or practitioner.
 This review is included in our Fiscal Year 2013 Annual Audit Plan and addresses the major
 management challenge of Providing Quality Taxpayer Service Operations.
 Management’s complete response to the draft report is included as Appendix IV.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Gregory D. Kutz, Assistant
 Inspector General for Audit (Management Services and Exempt Organizations).
                                  Chief Counsel Should Take Steps to Minimize the
                                   Risk of Outside Influence on Its Letter Rulings




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Written Policies and an Effective Management Information
          System Are Needed to Limit the Potential Risk of Outside
          Influence on Letter Rulings .......................................................................... Page 3
                    Recommendation 1:.......................................................... Page 5

                    Recommendations 2 and 3: ................................................ Page 6


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 7
          Appendix II – Major Contributors to This Report ........................................ Page 9
          Appendix III – Report Distribution List ....................................................... Page 10
          Appendix IV – Management’s Response to the Draft Report ...................... Page 11
                              Chief Counsel Should Take Steps to Minimize the
                               Risk of Outside Influence on Its Letter Rulings




                                              Background

The mission of the Office of Chief Counsel is to serve America’s taxpayers fairly and with
integrity by providing correct legal and impartial interpretation of the Internal Revenue laws.
Chief Counsel issues letter rulings as one way to provide taxpayers with guidance on the proper
application of the Internal Revenue laws. A letter ruling is a written response that interprets and
applies the tax law to the taxpayer’s specific set of facts. The purpose of the letter ruling is to
advise taxpayers regarding the tax treatment they can expect from the Internal Revenue Service
in the circumstances specified by the ruling.
Taxpayers can request a letter ruling on a multitude of issues under the Internal Revenue Code.
This could include questions ranging from changes in accounting methods to relief provisions
that permit taxpayers to file late elections even when the statute requires a timely election1 with
the tax return. Letter rulings can help taxpayers confirm the tax treatment of proposed
transactions before they are undertaken, so the timeliness of the advice is important. Therefore,
letter rulings are generally provided to taxpayers before a tax return is filed. Six associate offices
under the supervision of the Deputy Chief Counsel (Technical) issue letter rulings.2 Each
associate office specializes in providing legal services and advice on specific sections of the
Internal Revenue Code relating to tax issues under their jurisdiction. These tax issues involve
corporations, individuals, government entities, exempt organizations, financial institutions,
specialized industries, and international persons or entities within the United States.
Correct and impartial interpretation is necessary to
ensure that taxpayers are confident that the tax laws
are applied with integrity and fairness. However,            Correct and impartial interpretation
                                                            is necessary to ensure that taxpayers
practitioners have reportedly developed strategies to
                                                              are confident that the tax laws are
increase their chances of obtaining expeditious and           applied with integrity and fairness.
favorable rulings by having their letter ruling request
assigned to a preferred attorney.3 Because of the
fees associated with requesting a letter ruling (ranging from $2,000 to $18,000), associated
attorney costs to prepare a letter ruling request (that can be as much as several hundred thousand



1
  Elections can include an application for requesting to change or retain an accounting method or accounting period.
However, it does not include an extension for filing a tax return.
2
  The Deputy Chief Counsel (Technical) participates in the interpretation and development of Internal Revenue laws
and is responsible for supervising the six Associate Chief Counsel offices. The Associate Chief Counsel (Procedure
and Administration) under the Deputy Chief Counsel (Operations) also issues letter rulings. However, this associate
office was not included in our review because it issued only eight of the 1,003 letter rulings during Fiscal Year 2011.
3
  Tax Analysts, Tax Notes Today, The New Limits on Corporate Letter Rulings Explained (January 31, 2012).
                                                                                                              Page 1
                              Chief Counsel Should Take Steps to Minimize the
                               Risk of Outside Influence on Its Letter Rulings



dollars), and the potential tax impact of a favorable ruling, many practitioners view this strategy
as a good business practice.
The basic strategy practitioners use to have their letter ruling requests assigned to a preferred
attorney in Chief Counsel includes making direct, extended contact with an attorney whom they
have a positive relationship, including scheduling a presubmission conference.4 If the Chief
Counsel attorney indicates during the conference that a favorable ruling is likely, the practitioner
will reference the preferred attorney in the letter ruling request for potential case assignment.
This review was performed at the Chief Counsel’s Headquarters office located in
Washington, D.C., during the period July 2012 through January 2013. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We did
not evaluate the accuracy of the legal interpretation of letter rulings, but focused on the
processing of letter ruling requests. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objective. Detailed information on our
audit objective, scope, and methodology is presented in Appendix I. Major contributors to the
report are listed in Appendix II.




4
  A presubmission conference can be requested to discuss the substantive or procedural issues relating to a proposed
letter ruling request.
                                                                                                            Page 2
                             Chief Counsel Should Take Steps to Minimize the
                              Risk of Outside Influence on Its Letter Rulings




                                     Results of Review

Written Policies and an Effective Management Information System Are
Needed to Limit the Potential Risk of Outside Influence on Letter
Rulings
Chief Counsel does not have written policies and a management information system with
complete and accurate information to assess the potential that tax practitioners or taxpayers have
influenced the letter ruling process to obtain more expeditious and favorable letter rulings.
Because of these limitations, we could not determine whether Chief Counsel’s policy to limit the
number of letter ruling assignments to a preferred attorney is effective to prevent any undue
influence on its letter rulings.

Chief Counsel should develop written policies designed to prevent or minimize
potential outside influence on its letter ruling process
Of the six Associate Chief Counsel offices, only the Associate Chief Counsel office responsible
for corporate tax issues has developed a written policy to mitigate the potential of outside
influence on its assignment of letter rulings. This policy attempts to reduce any outside influence
on the letter ruling process by limiting the number of letter rulings that can be assigned to an
attorney from a specific source or topic.5 The remaining Associate Chief Counsel offices do not
have any written policies to determine whether taxpayers or practitioners have influenced their
letter rulings. These remaining offices depend on their informal processes for the daily receipt,
assignment, and control of letter ruling requests to identify strategies employed to obtain
expeditious and favorable rulings. However, we determined that these informal processes do not
require Chief Counsel’s personnel to consider, identify, or assess the potential of outside
influence on its letter rulings.
In an attempt to limit the practitioners’ ability to influence which attorneys are assigned to work
on their letter ruling requests, the Associate Chief Counsel office that deals with corporate tax
issues implemented a system of procedures to address potential outside influence in its letter
ruling process. According to these new procedures, attorneys can keep up to two-thirds of letter
ruling requests received directly from a firm. If the letter ruling request received by the attorney
exceeds the two-thirds rule, the attorney is required to decline involvement and send the request
to the front office for assignment. These new requirements also limit the number of rulings to
which an attorney may be assigned that address the same Internal Revenue Code section or topic.

5
 A source includes law and accounting firms and Internal Revenue Service operating divisions. A topic includes
Internal Revenue Code sections and the name of the tax matter.
                                                                                                         Page 3
                               Chief Counsel Should Take Steps to Minimize the
                                Risk of Outside Influence on Its Letter Rulings



The remaining associate offices do not have any written policy regarding letter ruling
assignment.
Management from the remaining associate offices stated that limiting the number of letter rulings
to a specific attorney in each office is not practical due to factors unique to each office. For
example, one associate office’s main source of letter ruling requests is from the four largest
accounting firms. As a result, management within this associate office believes a policy of
limiting letter ruling assignments from the same source is impractical to implement.
While we understand that there may be some factors in each office that complicate the
assignment of letter ruling requests, written policies to determine whether taxpayers or
practitioners have influenced the outcome of letter rulings would provide Chief Counsel
additional tools to minimize the potential risk. The appearance that practitioners could possibly
manipulate the letter ruling process may result in the risk that inappropriate favorable rulings
could cost the Government substantial tax revenue.

Actions should be taken to ensure that inventory information is complete to
oversee the assignment of cases to attorneys
There are two ways an attorney in the Associate Chief Counsel office responsible for corporate
tax issues can receive a request for a letter ruling. First, the Chief Counsel front office
management can randomly assign incoming rulings to attorneys through the office’s daily case
assignment process. The front office assignment process considers the attorneys’ expertise and
current case assignment workload. Second, the taxpayer or practitioner can request the attorney
to work their letter ruling. This associate office developed a written case assignment policy in an
attempt to limit the reported strategy that practitioners have successfully placed their letter ruling
requests with a preferred attorney. This policy is designed to limit the number of potential letter
ruling assignments sent directly6 to an attorney rather than through the front office assignment
process.
For the work received directly from practitioners, the attorney is supposed to consider the
two-thirds rule when deciding to work the case. After applying the two-thirds rule, attorneys are
required to notify the front office whether they want the letter ruling requests to be assigned to
them or to be assigned through the office’s normal case assignment process. When attorneys
request that the resulting letter ruling be assigned to them, they are required to provide the front
office staff specific information about their decisions to work or not work the requests so the
front office can control and input the assignment information on its inventory system.
However, we found that this policy would not effectively limit taxpayers and practitioners from
placing their letter ruling requests with a preferred attorney. For example, the Chief Counsel’s

6
 The written policy from the Associate Chief Counsel Office responsible for corporate tax issues shows that a
directly placed letter ruling is a potential assignment that comes directly to an attorney other than through their front
office assignment procedures.
                                                                                                                 Page 4
                            Chief Counsel Should Take Steps to Minimize the
                             Risk of Outside Influence on Its Letter Rulings



Technical Management Information System (TECHMIS)7 did not always contain complete
information on the inventory of letter ruling cases that would allow management to effectively
assist in reviewing inventory assignments to identify noncompliance with the two-thirds rule.
We determined that the support and management staff did not always enter this information as
required or were not provided all necessary information from the attorneys for input to the
database. Specifically, for Fiscal Years8 2009 through 2011, we found the names of
244 practitioners and 2,094 firms were missing from the database. This information is critical
for any reviews by management to ensure that attorneys are not exceeding the two-thirds rule
when working multiple letter ruling requests.
In addition, management does not perform any reviews of inventory assignments to ensure that
the case assignment policy is being followed. Instead, the attorneys in the Associate Chief
Counsel office responsible for corporate tax issues are individually responsible for maintaining
the information to show their decisions when applying the two-thirds rule. This process does not
ensure that management has complete information needed to determine whether their attorneys
are exceeding the two-thirds rule and whether the rule is being applied consistently throughout
the office.
This decentralized case assignment and review process for letter rulings limits management’s
ability to ensure that the two-thirds rule is effectively applied. A more effective case assignment
and review process, along with reliable case inventory data, would enable management to
identify and prevent potential outside influence in the letter ruling assignment process and
provide for a more consistent treatment of taxpayers throughout the program.

Recommendations
The Chief Counsel should:
Recommendation 1: Develop written policies for all Associate Chief Counsel offices to
oversee, manage, and, as appropriate, limit the number of letter ruling assignments to any
particular attorney originating from the same practitioner.
        Management’s Response: The Internal Revenue Service agreed with this
        recommendation. Chief Counsel plans to revise its written procedures for letter rulings to
        address the assignment of letter rulings in all Associate Chief Counsel offices. These
        revised written procedures will require management to 1) adopt additional safeguards on
        the presubmission conference process to minimize the ability of a practitioner to use the
        process as a tactic to direct the resulting letter ruling request to a particular attorney;


7
  The TECHMIS is a case control and management inventory information system for all of Chief Counsel’s
technical and guidance work.
8
  A 12-consecutive-month period ending on the last day of any month. The Federal Government’s fiscal year begins
on October 1 and ends on September 30.
                                                                                                        Page 5
                         Chief Counsel Should Take Steps to Minimize the
                          Risk of Outside Influence on Its Letter Rulings



       2) monitor the number of letter ruling requests from a particular practitioner that are
       assigned to each attorney; 3) consider the number of letter rulings from the same
       practitioner assigned to a specific individual attorney (as well as the subject matter
       expertise of the attorney), office workload considerations, and other relevant
       considerations when assigning new letter ruling requests; and 4) continue to use
       preissuance review processes as a substantive check on the holding(s) of letter rulings,
       and particularly to ensure that novel or otherwise significant interpretations of the law
       receive adequate review at the appropriate management level within each Associate Chief
       Counsel office.
Recommendation 2: Establish a centralized processing location for receipt and review by the
Office of the Associate Chief Counsel (Corporate) for letter rulings sent directly to attorneys for
the initial application of the two-thirds rule. In addition, require management to periodically
review its inventory system to ensure that established policies and procedures are effective in
limiting the number of letter rulings assigned to a specific attorney that originates from the same
practitioner.
       Management’s Response: The Internal Revenue Service agreed with this
       recommendation. Chief Counsel plans to revise its written procedures for letter rulings to
       address the process for assigning letter rulings in each Associate Chief Counsel office,
       including the Office of the Associate Chief Counsel (Corporate). These revised written
       procedures will clarify that each associate office will have a centralized location for the
       receipt and assignment of letter ruling requests. Additionally, the revised written
       procedures will require management to review their inventory periodically to ensure that
       the letter ruling assignment procedures are being followed. Finally, Chief Counsel plans
       to periodically evaluate whether its assignment procedures provide an appropriate
       balance between the efficient use of its limited resources and minimization of potential
       outside influences on the letter ruling process.
Recommendation 3: Periodically review the TECHMIS to ensure that front office staff is
receiving and inputting all applicable letter ruling requests and related information in the
inventory system.
       Management’s Response: The Internal Revenue Service agreed with this
       recommendation. Chief Counsel plans to revise its written procedures for letter rulings to
       require that management periodically review the TECHMIS to ensure that the applicable
       information received with a letter ruling request (including the name and firm of the
       practitioner) is input into the inventory system. These written procedures also will
       require management to take this information into account when determining whether to
       assign a letter ruling request to a particular attorney.




                                                                                            Page 6
                               Chief Counsel Should Take Steps to Minimize the
                                Risk of Outside Influence on Its Letter Rulings



                                                                                                      Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess Chief Counsel’s process to limit the number of
letter ruling requests handled by its attorneys from the same taxpayer or practitioner. To
accomplish this objective, we:
I.       Determined the case assignment process followed by Chief Counsel when receiving
         ruling requests from taxpayers/practitioners.
         A. Reviewed the policies and procedures for receiving, assigning, and controlling letter
            ruling requests, including those designed to limit the number of times letter ruling
            requests from the same taxpayer/practitioner are assigned to a particular Chief
            Counsel attorney.
         B. Determined how each branch within each Associate Chief Counsel office is
            organized, including what issues are under each branch’s jurisdiction.
         C. Interviewed key Chief Counsel personnel responsible for assigning letter ruling
            requests to attorneys within each Chief Counsel branch.
         D. Determined the policies and procedures for conducting conferences1 between
            Chief Counsel’s attorneys and taxpayers/practitioners.
II.      Determined whether Chief Counsel has a review process to limit the number of letter
         rulings handled by its attorneys for the same taxpayer/practitioner.
         A. Determined what policies and procedures are in place to limit the effectiveness of
            strategies employed by taxpayers/practitioners to increase their chances of obtaining
            favorable rulings.
         B. Interviewed Chief Counsel management to determine how case assignments are
            monitored among Chief Counsel attorneys and associate offices to identify multiple
            requests by the same taxpayers/practitioners being assigned to the same attorney.
         C. Determined what actions Chief Counsel has taken to identify and prevent multiple
            requests by the same taxpayer/practitioner from being assigned to the same attorney.


1
 These conferences include presubmission and a conference of right. Presubmission conferences are held to discuss
substantive or procedural issues relating to a transaction prior to the filing of a ruling request. A conference of right
may be granted to provide the taxpayer with an opportunity to present additional information or arguments when
Chief Counsel is tentatively issuing an adverse letter ruling.
                                                                                                                Page 7
                            Chief Counsel Should Take Steps to Minimize the
                             Risk of Outside Influence on Its Letter Rulings



III.    Determined whether Chief Counsel’s process is effective to prevent multiple requests
        from the same taxpayer/practitioner from being assigned to the same attorney.
        A. Obtained from the TECHMIS2 a computer extract of all letter rulings issued for
           Fiscal Years3 2009 through 2011.
        B. Reviewed the letter rulings closed during Fiscal Years 2009 through 2011 to identify
           whether the same attorney handled multiple requests from the same
           taxpayer/practitioner.
Data validation methodology
To achieve our audit objective, we relied on computer-processed data contained in the
TECHMIS. We conducted validity tests to determine whether we received complete and
accurate data. Based on the validity assessments, we concluded that the data are sufficiently
reliable to be used in meeting our audit objective. However, as discussed in the body of the
report, we found that the TECHMIS did not always contain complete information on the
inventory of letter ruling cases that would allow management to effectively assist in reviewing
inventory assignments to identify noncompliance with the two-thirds rule.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: Chief Counsel’s policies and procedures
for the receipt, assignment, and control of letter ruling requests. We evaluated these controls by
reviewing attorneys’ letter ruling case assignments, interviewing management, and analyzing
information from Chief Counsel’s inventory system used to control case assignments.




2
  The TECHMIS is a case control and management inventory information system for all of Chief Counsel’s
technical and guidance work.
3
  A 12-consecutive-month period ending on the last day of any month. The Federal Government’s fiscal year begins
on October 1 and ends on September 30.
                                                                                                        Page 8
                       Chief Counsel Should Take Steps to Minimize the
                        Risk of Outside Influence on Its Letter Rulings



                                                                            Appendix II

                Major Contributors to This Report

Gregory D. Kutz, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Jeffrey M. Jones, Director
Jonathan T. Meyer, Director
Joseph F. Cooney, Audit Manager
John W. Baxter, Lead Auditor
Mildred R. Woody, Senior Auditor
Autumn E. Gill, Audit Evaluator
Meagan D. Green, Audit Intern




                                                                                    Page 9
                       Chief Counsel Should Take Steps to Minimize the
                        Risk of Outside Influence on Its Letter Rulings



                                                                  Appendix III

                         Report Distribution List

Principal Deputy Commissioner
Office of the Commissioner – Attn: Chief of Staff C
Deputy Chief Counsel (Operations) CC
Deputy Chief Counsel (Technical) CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief Counsel CC




                                                                          Page 10
        Chief Counsel Should Take Steps to Minimize the
         Risk of Outside Influence on Its Letter Rulings



                                                   Appendix IV

Management’s Response to the Draft Report




                                                           Page 11
Chief Counsel Should Take Steps to Minimize the
 Risk of Outside Influence on Its Letter Rulings




                                                   Page 12
Chief Counsel Should Take Steps to Minimize the
 Risk of Outside Influence on Its Letter Rulings




                                                   Page 13
Chief Counsel Should Take Steps to Minimize the
 Risk of Outside Influence on Its Letter Rulings




                                                   Page 14
Chief Counsel Should Take Steps to Minimize the
 Risk of Outside Influence on Its Letter Rulings




                                                   Page 15
